No.:
IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody,
Respondents).
INDEX TO APPENDICES
Appendix A:

Decision of the Fourth District Court of Appeal of Florida.

Appendix B:

Order of the Fourth District Court of Appeal Denying Rehearing.

Appendix C:

Petitioner’s Petition for Writ of Habeas Corpus and Motion for
Rehearing.

Appendix D:

Published Opinion of the Fourth District Court of Appeal of Florida
on Direct Appeal. Eugene v. State, 53 So.3d 1104 (Fla. 4th DCA 2011).

Appendix E:

Repaginated Pertinent Supporting Records to Petitioner’s Petition.

Appendix F

Order of the Florida Supreme Court Dismissing Petitioner’s All Writ
Petition Seeking Review of the Fourth District Court of Appeal of
Florida.

f

No.:
IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Respon den t(s).

Appendix A
(Order of the Fourth District Court of Appeal of the State of Florida)

Appendix A

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 110 SOUTH TAMARIND AVENUE, WEST PALM BEACH, FL 33401
January 27, 2021

CASE NO.: 4D21-0023
L.T. No.:
06-7295CF10A.
VLADIMIR EUGENE

v.

Appellant / Petitioner(s)

STATE OF FLORIDA
Appellee / Respondent(s)

BY ORDER OF THE COURT:
ORDERED that the January 4, 2021 petition for writ of habeas corpus is denied. The
above styled petition is frivolous and the claims are successive. See 4D18-2697; 4D16-583.
We caution petitioner that his continued filing of abusive, repetitive, malicious, and/or
frivolous filings may result in sanctions, such as a bar on pro se filing in this court or referral
to prison officials for disciplinary procedures, which may include forfeiture of gain time. See
State v. Spencer, 751 So. 2d 47 (Fla. 1999); § 944.279(1), Fla. Stat. (2020).
LEVINE, C.J., KLINGENSMITH and RTAU, JJ„ concur.

Served:
cc: Attorney General-W.P.B.
Clerk Broward

Hon. Barbara Anne
McCarthy

State Attorney-Broward
Vladimir Eugene

kh

To
LONN WE1SSBLUM, Clerk
Fourth District Court of Appeal

Op pi

No.:
IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Respon den t(s).

Appendix B
(Order of the Fourth District Court of Appeal of Florida denying, rehearing)

Appendix B

No.:
IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Responden t(s).

Appendix B
(Order of the Fourth District Court of Appeal of Florida denying rehearing)

Appendix

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FOURTH DISTRICT, 110 SOUTH TAMARIND AVENUE, WEST PALM BEACH, FL 33401
March 19, 2021

CASE NO.: 4D21-0023
L.T. No.:
06-7295CF10A
VLADIMIR EUGENE

v.

Appellant / Petitioner(s)

STATE OF FLORIDA
Appellee / Respondent(s)

BY ORDER OF THE COURT:
ORDERED that petitioner's February 5, 2021 motion for rehearing, rehearing en banc,
and written opinion is denied.

Served:
cc: Attorney General-W.P.B.

Vladimir Eugene *W*

kr

LONN WEISSBLUM, Clerk
Fourth District Court of Appeal

No.:
IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Respondent(s).

Appendix C
(Petitioner’s Petition for Writ of Habeas Corpus and Motion for Rehearing.)

Appendix C

IN THE DISTRICT COURT OF APPE
FOURTH DISTRIC
VLADIMIR EUGENE,
Petitioner,

DESOTO C.I.
FOR MAILING
INMATE INITIALS </.&.
OFFICER INITIALS Jfs

Case No: _________________
Case No: 4D07-246, 4D16-583,
4D17-2454
Lt. Case No.: 06-7295 CF10A

v.
STATE OF FLORIDA,
Respondent.

PETITION FOR WRIT OF HABEAS CORPUS
Pursuant to article V §4(b)(3) of the Florida Constitution and Florida Rules
of Appellate Procedure, Rule 9.030(c)(3), Petitioner Vladimir Eugene, pro se, in
Good Faith, petitions this Honorable Court to issue a writ of habeas corpus
directed to the trial court to grant Petitioner a new trial in the interest of justice. In
support, Petitioner states the following:
JURISDICTION
Pursuant to article V §4(b)(3) of the Florida Constitution and Florida Rules
of Appellate Procedure, Rule 9.030(c)(3), this Honorable Court has jurisdiction to
issue a writ of habeas corpus to correct previously issued rulings. This Court’s
jurisdiction is being invoked to correct this Court’s previous rulings on the
following issues:
I. Trial Court Committed Harmful Error by Admitting the Deceased’s Emails
to Petitioner.
II. Trial Counsel Was Constitutionally Ineffective Under Strickland for Failing
to Move to Suppress Petitioner’s July 19th Post-polygraph Statements.

1

III.The Prosecution’s Use of Perjured Testimony Violates Petitioner’s Due
Process Right to a Fair Trial.
RELIEF SOUGHT
In good faith, Petitioner urges this Honorable Court to exercise its inherent
authority, grant this petition, and reconsider and correct its previous rulings in the
aforementioned three points of error to avoid incongruous, conflictive, and
manifestly unfair results and a denial of his substantive due process rights to
effective assistance of counsel and a fair trial and grant him a new trial.
STATEMENT OF THE PERTINENT FACTS
For clarity purposes, the pertinent facts are concisely stated within each
respective issue. Further, unless the Court request otherwise, to avoid redundant
records, the following symbols will be used followed by page number to refer to
the pertinent facts herein:
“IB”: Petitioner’s Initial Brief on direct appeal;
“AB”: Respondent’s Answer Brief on direct appeal;
“RB”: Petitioner’s Reply Brief on direct appeal; and
“IB 3.850”: Petitioner’s Initial Brief appealing denial 3.850.
ARGUMENT
As a preliminary matter, Petitioner recognizes that the three issues in this
petition are successive because they were presented in Case Nos.: 4D07-246,
4D16-583, and 4D17-2454. Hence, those decisions become the law of the case.
However, “An appellate court has the power to reconsider and correct an erroneous
2

ruling that has become the law of the case where a prior ruling would result in a
manifest injustice.” State v. Akins, 69 So.3d 261, 269 (Fla. 2011). As this Court
held in Johnson “It is a manifest injustice to deny [Petitioner] the same relief
afforded other defendants identically situated.” Johnson v. State, 9 So.3d 640, 642
(Fla. 4th DCA 2009).
It is well settled under Florida law that the writ of habeas corpus is the
proper remedy to correct a manifest injustice arid to avoid an incongruent and
manifestly unjust result. Stephens v. State, 974 So.2d 455, 457 (Fla. 2nd DCA
2008) (“... this court has exercised its inherent authority to grant a writ of habeas
corpus to avoid incongruous and manifestly unfair results”); see also Prince v.
State, 98 So.3d 768 (Fla. 4th DCA 2012). Here, a writ of habeas corpus is
warranted to correct this Court’s previous rulings to avoid incongruous, conflictive,
and manifestly unfair results and a manifest injustice.
ISSUE ONE
TRIAL COURT COMMITTED HARMFUL ERROR BY
ADMITTING
THE
DECEASED’S
EMAILS
TO
PETITIONER.
Supporting facts:
Petitioner was charged and convicted of premeditated first degree murder.
Petitioner denied committing the murder. At trial, the State’ presented a wholly
circumstantial evidence case (no eyewitness, no DNA or fingerprint evidence
linking Petitioner to the murder, and no confession of guilt). IB 19.

3

The State’s theory was that Petitioner was the only person who had motive
to murder the deceased since she had recently shunned him. In support, the State
sought to introduce the deceased’s emails to Petitioner. Defense counsel objected
pre-trial and at trial that the emails were hearsay in violation of Crawford and its
progeny because they were: 1) offered for their truth; 2) not subject to crossexamination; 3) irrelevant; and 4) the deceased was unavailable. IB 10 (internal
citations omitted). The State responded that the emails were not offered for the
truth but to put Petitioner’s emails in proper context. Id. The trial court held that
the emails were not hearsay and therefore were admissible. Id.
During closing argument, the State argued in pertinent part:
“You will see from the emails and you will see as we go through the
evidence, that this is what the case comes down to. This man, in the name of
some sick love, couldn’t stand it anymore. On that day, he hit a boiling point
and brutally killed [the deceased].
You know it;s a personal crime because not only does he suffocate her,
he also does ligature and strangles her to death. Why both ways? That is
rage. That is anger coming out.
He is angry at her for what? You know from the emails that she had
the nerve to reject him. She had the nerve to cut her out of his life. In the
beginning, he told the police officers their relationship was fine. She
didn V cut me out of her life. You are talking like she cut me out of her life
or something.
You will see from the emails, because he doesn *t know that those are
still on fthe deceasedl’s computer and the police will eventually get those.
That is exactly what she did. She cut him out of her life”.
You know from that point on, the relationship severs. Ithe deceasedl
cuts him out. She is not going to let him in her life anymore. That is what
starts all of this. This is where the motive comes from.

4

The man sitting right there is what caused what she looked like in this
picture to become that picture. That man did that. It’s because she rebuffed
him. In the name of love, he couldn V take it, and killed her.
You know what? I gave you this gift. I have done all this for you. I
have been begging you. I have been pouring my heart out to you, and you
still reject me. You went out with this other guy on this night
“Goins back to 1the deceasedl. Remember that he savs that lthe
deceasedl didn’t cut him off. This is an email from lthe deceasedl written
on May 18th: I will never get over the fact that you hurt me. I always
believed in you. I always thought we would never part. Unfortunately, I
can’t get over the fact that the man I loved whole heartedly, nothing holding
back, could ever do what you did. The sad thing is, I still love you the same.
Ijust can’t be around you yet I still love you. I could never hate you because
I love you too much. It’s funny how at the moment, you could look me in the
eye and strike me twice, with no hesitation. It won’t happen again, because I
won’t be there anymore for it to happen. It’s funny how you can look me
dead in the face, in my eyes, and strike me, not once but twice, the person
that you claim you love so deeply. Yet, at the same moment, you didn’t strike
[Petitioner’s wife]. That goes to show you who you really love. ’
She goes on to say: ‘You will be extremely happy to know that me
and Adelyn are broken up. I can’t say broken up, because we were never
together. I mean that our friendship is no longer there, as well. You and
your lovely wife will be happy to know that. Although I never mentioned it
to you, all I ever wanted was his friendship. Nothing else I cherished that
friendship; all the flaws and great attributes that it had. I honest to God I
thought he was an excellent friend.’
She is savins risht there that she is cuttins him off: I will never see
you asain. ‘How could you look me look me straisht in the eve so coldly
and strike me. Not only did I lose my heart and soul mate, but you and
your lovely wife took a very sood friend of mine, as well Farewell
Goodbye. I will always remember the IPetitioner1 that never hit me. ’
She rebuffed him and that’s it, it’s over. How dare she. She is soins to
leave him? He will show her, and he did. He took her life.
And yet she rejects him. How angry is he getting? This is day after day
after day. He is in the middle of the night pouring his heart out to her and
nothing is working.
[The deceased] said to him: ‘We agreed to have distance between us,
and you broke that today [Petitioner]. It’s already very hard emailing you
5

and having to see you, but you are making it very hard for me when you
come to me crying. I can’t handle all of that. I am already in a lot of pain. I
can’t take no more. For God sake. I have you up on my ass crying, which
makes me feel even worse. I have Adelyn in the midst of this. I think I
honestly hurt his feelings. Now I believe he doesn’t like me anymore. He
wants nothing to do with me at all. He says he’s okay, but his attitude is
distant from me, so I just leave him alone. I do have a problem with you
calling me crying, coming to me crying. Like I said, I don’t promise you
that I will ever talk to you again.’” IB 26-29.
On direct appeal, Petitioner argued the deceased’s emails were inadmissible
hearsay because the prosecutor single-mindedly used them for their truth in
closing. IB 26-30; RB 4. This Court adopted the State’s argument (AB 28, 30-35)
and held that “the emails were not hearsay because they were offered not for the
truth of the matters they contained but to establish the effect that the statements
had on [Petitioner], the recipient of the emails.” Eugene v. State, 53 So.3d 1104,
1109 (Fla. 4th DCA 2011). And subsequently denied rehearing on the same issue.
Lesal Argument:
Petitioner contends that this Court should exercise its inherent authority to
correct its manifestly unjust and conflictive decision in Eugene v. State, 53 So.3d
1104 (Fla. 4th DCA 2011) and afford him the same relief as the defendants in
Conley v. State, 620 So.2d 180 (Fla. 1993) and Banks v. State, 790 So.2d 1094
(Fla. 2001). Further, the Court’s decision allows the State to circumvent the
holding in Crawford v. Washington, 541 U.S. 36 (2004), and violate Petitioner’s
substantive due process rights to a fair trial and confront the witness against him
guaranteed by the United States and Florida Constitutions.
6

The Florida Supreme Court has consistently held “Regardless of the purpose
for which the State claims it offered the evidence, the State used the evidence to
prove the truth of the matter asserted. In so doing, the statement constituted
hearsay and fell within no recognized exception to the rule of exclusion”. Conley v.
State, 620 So.2d 180, 184 (Fla. 1993); see also Adams v. State, 195 So.3d 424, 429
(Fla. 4th DCA 2016) (citing Conley). In Banks v. State, 790 So.2d 1094, 1099 (Fla.
2001), our supreme court held “Even when statements are properly admitted as
verbal acts, it would be improper for the State to use the statements thereafter for
the truth of the matter asserted therein”.
Here, the deceased’s emails were admitted for a non-hearsay purpose, to put
Petitioner’s emails in proper context. However, as evidenced by the above cited
excerpts of the prosecutor’s closing argument, once admitted, the prosecutor
creatively used them for their truth to prove that the deceased had cut Petitioner out
of her life which enraged Petitioner and to contradict Petitioner’s statements to the
police. By doing so, the deceased’s emails were inadmissible hearsay regardless of
the purpose the State claims it had offered them. The prosecutor’s closing
argument indisputably shows that those emails were used exclusively for their
truth. The record is void of any evidence that the prosecutor used or even attempted
to use those emails to show their effect on Petitioner, as argued for the first time on
direct appeal and totally inconsistent with the prosecutor’s closing argument. As

7

such, our Supreme Court’s holdings in Conley and Banks are applicable and this
Court had inadvertently failed to perceive this critical factor on direct appeal.
Furthermore, in light of the State’s wholly circumstantial evidence case and
Petitioner’s legal theory of defense, it was harmful error because the prosecutor
made the deceased’s emails a feature in closing argument, improperly used them as
substantive evidence to bolster its closing argument and strengthen the contested
issues of motive and identity. Consequently, it would be manifestly unjust to deny
Petitioner the same relief as Conley and Banks, a new trial. Otherwise, Petitioner
prayerfully asks the Court to certify conflict with Conley v. State, 620 So.2d 180
(Fla. 1993) and Banks v. State, 790 So.2d 1094 (Fla. 2001), on this issue.
ISSUE TWO
TRIAL
COUNSEL
WAS
CONSTITUTIONALLY
INEFFECTIVE UNDER STRICKLAND FOR FAILING TO
MOVE TO SUPPRESS PETITIONER’S JULY 19th POST­
POLYGRAPH STATEMENTS.
Supporting facts:
On July 19, 2005, at the request of the detectives, Petitioner reported to the
Miramar Police Department for a polygraph. Prior to the polygraph, the examiner
read and Petitioner signed a Miranda waiver of rights which made no mention of
post-polygraph interrogation and Petitioner was not told he would be subject to
any. The examiner then administered the test. At the conclusion, the examiner
called in the detectives, explained the results then told Petitioner “Well, hopefully
8

umm, you know, you’ll tell them what you need to tell them and you go from there.
Good luck” then left. IB 3.850: 3, 4. Subsequently, without re-advisement of his
Miranda rights, the following exchange occurred:
Det. Toyota: “So [Petitioner] where does that leave us?
Petitioner: (no audible answer)
Det. Toyota: You don’t know?
Petitioner: I have no idea sir.” Id.
And the post-polygraph interrogation continued for twenty hours. During the
twenty-hour post-polygraph interrogation, Petitioner: 1) was interrogated by four
detectives with at least two present at all times; 2) was escorted to and from the
restroom as needed with its door guarded open and was offered food and water; 3)
was told they knew he committed the murder, was lying about it, and was the sole
viable suspect; and 3) was never told he was free to leave at any time. Id.
Petitioner has consistently argued that trial counsel was constitutionally
ineffective for failing to suppress his July 19th post-polygraph statements pursuant
to Wyrick v. Fields, 459 U.S. 42 (1982). Id 18-21. The State responded this claim
is refuted by the record for Petitioner admitted he was advised of his Miranda
rights before the polygraph. Id 19. The court denied this claim based on the State’s
response. Petitioner argued on appeal that the court below reversibly erred for
failing to apply Wyrick’s “totality of the circumstances test”. IB 3.850: 18-23. This
Court affirmed. Eugene v. State, 200 So.3d 70 (Fla. 4th DCA 2016).

9

Lesal Argument:
It is well established whether a signed waiver before a polygraph extends to
post-polygraph interrogation, a reviewing court must apply the totality of the
circumstances, as Edwards requires, including the necessary fact that the suspect
requested the polygraph, is controlling. Wyrick v. Fields, 459 U.S. 42, 47 (1982).
In reversing the decision below, the Wyrick court held:
“In reaching this result, the court of appeals did not examine the
totality of circumstances, as Edwards requires. Fields did not merely
initiate a meeting. By reauestins a nolvsravh examination. he initiated
interrosation. That is Fields waived not only his risht to be free of contact
with the authorities in the absence of an attorney, but also his risht to be
free of interrosation about the crime of which he was suspected. Fields
validly waived his risht to have counsel present at ‘post-test’ auestionins.
unless the circumstances changed so seriously that his answers no longer
were voluntary, or unless he no longer was making a ‘knowing and
intelligent relinquishment or abandonment’of his rights.” Id.
The Wyrick Court held further:
“The eight circuit’s rule certainly finds no support in Edwards, which
emphasizes that the totality of the circumstances, including the fact that the
suspect initiated the questioning, is controlling.” Id at 48.
Here, Petitioner maintains that the postconviction court erroneously denied
this claim because its decision rest solely on Petitioner signing the Miranda waiver
before the polygraph but failed to apply Wyrick’s “totality of the circumstances
test”, including the fact that Petitioner did not request the polygraph, is controlling.
Hence, this Court’s affirmance, premised on the same, is also erroneous.
In Gillyard, confronted with remarkably analogous facts, the Ninth Circuit
Court of Appeals applied Wyrick and held:

10

“The difference between the facts in Wyrick and [Gillyard] is much greater
than any generalized appearance of similarity. They are:
1. In Wyrick the defendant and his attorney requested the examination. [In
Gillyard] the defendant consented after the agents suggested that he take
one.
2. In Wyrick the defendant was represented by counsel. [In Gillyard], he
was not.
3. In Wyrick the statement read to the defendant included a clause much
broader than the standard Miranda warning given [in Gillyard]. [In Wyrick],
and not [in Gillyard], [Fields] was advised: “If you are now going to discuss
the offense under investigation, which is rape, with or without a lawyer
present, you have a right to stop answering questions at any time or speak to
a lawyer before answering further, even if you sign a waiver certificate.”
The Wyrick warning made it clear to [Fields] that he was not merely taking a
polygraph examination but was going to be asked questions about a specific
offense under investigation.
4. [In Wyrick] the post examination questioning was done by the same
person who conducted the polygraph examination after he had merely
switched off the machine. [In Gillyard] the questioning was not done by the
polygraph operator but by two officers who questioned the defendant for a
considerable period of time after the operator had left the room.” United
States v. Gillyard, 726 F.2d 1426, 1429 (9th Cir. 1984).
The Ninth Circuit concluded:
“... [The district court] properly applied the totality of circumstances
test repeated many times in Wyrick, and found no valid waiver.” Id; see also
United States v. Leon-Delfis, 203 F.3d 103, 111 (Cir. 1st 2000); United
States v. Johnson, 816 F.2d 918, 921-22, n.4 (Cir. 3rd 1987).
In Croney v. State, 495 So.2d 926 (Fla. 4th DCA 1986), this Court applied
the Wyrick’s totality of the circumstances test and distinguished Croney from the
defendant in Gillyard then affirmed this issue. Id. 927. Here, however, applying
Wyrick’s totality of circumstances test leads to the inescapable conclusion that, like
Gillyard, Petitioner did not waive his rights delineated in Miranda for the twenty-

11

hour post-polygraph custodial interrogation because Petitioner: 1) did not request
the polygraph; 2) did not initiate the twenty-hour post-polygraph custodial
interrogation; 3) was not told he would be subject to post-polygraph interrogation
or had any reason to believe otherwise; 4) was not represented by counsel; 5) was
interrogated for twenty hours after the examiner left; and 6) the twenty-hour post­
polygraph custodial interrogation was done by four detectives not the examiner.
As shown above and consistently argued, Petitioner’s twenty-hour post­
polygraph custodial statements should have been suppressed pursuant to Wyrick
and counsel performed deficiently for failing to do so. Since counsel’s deficient
performance allowed these statements obtained in violation of Miranda to play a
substantial role to convict Petitioner; and absent of these statements the evidence
of Petitioner’s guilt is tenuous, counsel’s deficient performance is prejudicial
because it undermines confidence in the outcome. Hence, trial counsel was
constitutionally ineffective under Strickland. Consequently, the decision below is
erroneous because it is rested solely on Petitioner signing the Miranda waiver
before the polygraph but failed to apply Wyrick’s “totality of circumstances test”
as required, including the fact that Petitioner did not request the polygraph, is
controlling. Thus, this Court’s affirmance, premised on the same, is also erroneous.
To avoid this incongruous, conflictive, and manifestly unjust result, and a denial of
Petitioner’s substantive due process rights to effective assistance of counsel and

12

fair trial, this Court should reconsider its previous ruling and grant Petitioner a new
trial.
ISSUE THREE
THE PROSECUTION’S USE OF PERJURED TESTIMONY
VIOLATES PETITIONER’S DUE PROCESS RIGHT TO A
FAIR TRIAL.
Supporting facts:
Petitioner was charged and convicted of premeditated first degree murder.
Petitioner denied committing the murder. At trial, the State presented a wholly
circumstantial evidence case (no eyewitness, no DNA or fingerprint evidence
linking Petitioner to the murder, and no confession of guilt). Petitioner’s legal
theory of defense was that Adelyn committed the murder and left the victim’s
cordless house phone in Petitioner’s car after borrowing it under the pretext that his
car had problem starting.
Evidence adduced at trial revealed that Adelyn lived with Petitioner at the
time of the murder. Petitioner drove his car to the deceased’s house after receiving
a call from the deceased’s house. Shortly thereafter, Adelyn arrived at the scene in
his own car. He then asked Petitioner to borrow his car keys. Petitioner complied.
Petitioner next saw his keys later that night when a detective handed them to him
and asked to search his car, which revealed the deceased’s cordless house phone.

13

Adelyn testified he borrowed Petitioner’s car to pick up Stephane because he
knew his car was not working when he first arrived and parked it. He testified
further, when he first arrived, he parked his car on the Eastside of the deceased’s
house. He walked around the block to the Westside because ‘crime scene tape’ was
there and was not allowed to walk through. He stated further when he went to pick
up Stephane, he did not attempt to use his car because he knew it was not working
when he first parked it. He testified further when he went to take Stephane home,
he explained the alarm problem to Stephane and Stephane fixed it by removing the
fuse to the alarm. IB 3.850: 7, 8. Stephane testified that he has no background or
experience in repairing or fixing cars. He does not know how to fix or repair alarm;
and he did not fix the alarm in Adelyn’s car to make it start that day. Id.
Days after Adelyn and Stephane testified, the State elicited the following
testimony from Detective Smith:
“Prosecutor: Okay. And pursuant to that request, do you know if Adelyn was
able to do that?
Detective: Adelyn was able to pick up Stephane, yes.
Prosecutor: Before he left to go do that, were there any problems in going
to do that?
Detective: Yes Adelyn was unable to—
Defense:
Objection. Hearsay.
Prosecutor: Do you know what car Adelyn wound up having to use?
Detective: He ended up using [Petitioner]’s vehicle.
Prosecutor: And without going into what was said, did you have a
conversation with Adelyn about why he was having to use that
car?
14

Detective:
Prosecutor:
Detective:
Prosecutor:

I did.
And did Adelyn approach you with a problem?
He did.
And did you make a request of Adelyn? Without telling us what
it was, did you make a request of Adelyn to do something else
to go get — Stephane?
Detective: Yes I did.
Prosecutor: After you made that request, did you see Adelvn go do
something to go get Stephane?
Detective: I did
Prosecutor: What did you see Adelvn do, based upon all these other
conversations?
Detective: / observed Adelvn attempt to so pick up Stephane in his
vehicle, however, his vehicle was not workine. He came back
and he used [Petitioner]’s vehicle to pick up Stephane.
IB 3.850: 8, 9.
Below, Petitioner argued that the State’s use of Detective Smith’s false
testimony or failed to correct it violates his due process right to fair trial. The State
responded this claim is procedurally barred because it should have been raised on
direct appeal. Alternatively the State characterized it as a sufficiency of the
evidence claim which should have been raised on direct appeal. IB 3.850: 44, 45.
The court adopted the State’s response and summarily denied the claim. Id.
Petitioner argued on appeal that the court below reversibly erred in denying this
claim because the State’s response is misleading because a Giglio claim is
cognizable in a 3.850 motion and Petitioner made no argument about sufficiency of
the evidence. Id. 44-46. This Court affirmed. Eugene v. State, 200 So.3d 70 (Fla.
4th DCA 2016).
15

Lesal Argument.
It is well established that the presentation of perjured testimony or failure to
correct the false testimony of a witness known to be false violates due process if
the false testimony could have affected the jury’s verdict. Giglio v. U. S., 405 U.S.
150, 153-55 (1972); Napue v. Illinois, 360 U.S. 264, 269-71 (1959).
Here, Petitioner has consistently argued the State’s deliberate and knowing
presentation of Detective Smith’s false testimony or failure to correct it violates his
substantive due process right to a fair trial. As Adelyn’s testimony reveals, -days
before Detective Smith testified-, Adelyn never returned or attempted to return to
his car to start it because he knew it would not start when he first arrived and
parked it. Hence, Detective Smith’s subsequent testimony, -“I observed Adelyn
attempt to go pick up Stephane in his vehicle, however, his vehicle was not
working. He came back and he used [Petitioner’s vehicle to pick up Stephane”-,
is patently false. The State knew or should have known because Detective Smith
testified days after Adelyn and Stephane and failed to correct it. Further and
troublingly so is, even with that knowledge, the State went to great length and
deliberately and knowingly elicited Detective Smith’s patently false testimony.
How could Detective Smith had seen or even observed (watched) Adelyn
attempted to go pick up Stephane in his car and it was not working then he came
back and used Petitioner’s car; when Adelyn unequivocally testified he did not

16

attempt to use his car to pick up Stephane because he knew it would not start when
he first arrived and parked it.
Materiality
In light of the State’s wholly circumstantial evidence case -(no eyewitness,
no DNA or physical evidence linking Petitioner to the murder, and no confession
of guilt)- and Petitioner’s legal theory of defense, (i.e., Adelyn committed the
murder and left the deceased’s cordless house phone in Petitioner’s car after using
it under the pretext that his car had problem starting when he went to pick up
Stephane), it is indisputable that Adelyn was the State’s star witness and the jury’s
assessment of his credibility was determinative of Petitioner’s guilt or innocence.
Equally indisputable is that Adelyn’s pretext for using petitioner’s car was
plausible until Stephane unwaveringly testified that he knows nothing about fixing
car or car alarms and he did not fix the alarm in Adelyn’s car to make it start when
Adelyn took him back home, as Adelyn testified. So, Adelyn’s car had no problem
starting. Stephane’s testimony completely discredited Adelyn’s pretext for using
Petitioner’s car; while Detective Smith’s patently false testimony self-corroborated
it and bolstered Adelyn’s credibility because Detective Smith is a police officer
and viewed by the jury as a disinterested and more credible witness.
Furthermore, Detective Smith’s patently false testimony undermined
1

Petitioner’s legal theory of defense because the jury could have rejected it inferring

17

that Adelyn could not have put the victim’s cordless house phone in Petitioner’s
car because, if Adelyn did, Detective Smith would have seen him since Detective
Smith testified he “observed” (watched) Adelyn attempted to pick up Stephane in
his car and it was not working and he returned to use Petitioner’s car. Further,
since it was determined from Stephane’s unwavering testimony that Adelyn took
him home in his car without any problem and without fixing anything to make it
start, Detective Smith’s patently false testimony foreclosed Adelyn’s re-crossexamination to expose his true motive for using Petitioner’s car which would have:
1) acutely further damaged Adelyn’s credibility —where the jury’s assessment of
his credibility was determinative of Petitioner’s guilt or innocent—; 2) strengthened
Petitioner’s legal theory of defense, and 3) considerably undermined the State’s
case. Thus, Detective Smith’s patently false testimony is material.
As shown above, the State deliberately and knowingly presented Detective
Smith’s patently false testimony or failed to correct it and this false testimony is
material. In doing so, the State corrupted the truth-seeking function of the trial
process which is “incompatible with rudimentary demands of justice” and violates
Petitioner’s substantive due process rights to a fair trial under the United States and
Florida Constitutions. It would be a travesty of justice to allow the State to deprive
Petitioner of his liberty through the deliberate and knowing presentation of

18

Detective Smith’s patently false testimony. And this Court should grant this
petition, reconsider its previous ruling, and grant Petitioner a new trial.
CONCLUSION
Through the lens of justice, based on the foregoing and in light of the State’s
wholly circumstantial evidence case and Petitioner’s legal theory of defense,
nothing could be more manifestly unjust than depriving Petitioner of his liberty
with a murder conviction rested largely on the State’s: 1) misuse of the deceased’s
hearsay emails as substantial evidence, violating Petitioner’s fundamental due
process rights to a fair trial and to confront the witness against him; 2) use of
Petitioner’s twenty-hour post-polygraph custodial statements obtained in violation
of his fundamental constitutional rights delineated in Miranda as substantial
evidence of his guilt -due to trial counsel’s ineffectiveness; and 3) deliberate and
knowing presentation of Detective Smith’s patently false testimony or failure to
correct it, violating Petitioner’s substantive due process right to a fair trial. Against
this compelling backdrop, Petitioner urges the Honorable Court to grant this
petition, reconsider and correct its previous rulings and grant Petitioner a new trial;
for failing to do so would be a travesty of justice and a denial of his substantive
due process rights to: 1) fair trial; 2) confront the witness against him; and 3)
effective assistance of counsel guaranteed by the United States and Florida
Constitutions.

19

WHEREFORE, in good faith, in ashes and in dust, Petitioner prays the
Honorable Court to grant this petition and correct its previous rulings and grant
Petitioner a new trial or an evidentiary hearing on Issues Two and Three or such
other relief the Court deems just and proper. Otherwise, Petitioner prayerfully asks
the Honorable Court to certify conflict with Conley v. State, 620 So.2d 180 (Fla.
1993), and Banks v. State, 790 So.2d 1094 (Fla. 2001), on Issue One.
Respectfully submitted,

Vladimir Eugene, DC# B04065
Petitioner, pro se
DeSoto Correctional Institution
13617 S.E. Hwy 70
Arcadia, Florida 34266-7800
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on this 30th day of December 2020,1 personally
handed a true and complete copy of this “Petition for Writ of Habeas Corpus” to an
official at DeSoto Correctional Institution Annex for the sole purpose of mailing
via first class U.S. Mail postage prepaid to:
• Office of the Attorney General; 1515 North Flagler Drive, Suite 900; West
Palm Beach, Florida 33401.

A
Vladimir Eugene, DC# B04065
Petitioner, pro se

20

CERTIFICATE OF COMPLIANCE
I HEREBY CERTIFY that this Petition for Writ of Habeas Corpus complies
with the font requirements of the Florida Rule of Appellate Procedure 9.100(1) and
is typed in Times New Roman 14-point font.

Vlactmnr Eugene, DC# B04065
Petitioner, pro se

21

IN THE DISTRICT COURT OF APPEALS OF FLORIDA
FOURTH DISTRICT
VLADIMIR EUGENE,
Petitioner,
v.

PROVIDED TO DESOTO C.S.
FOR MAlUNCpase No: 4D21-0023
------------------INMATE INITIALS U. Case No.: 06-7295CF10A

STATE OF FLORIDA, OFFICER
Respondent.
/

INITIALSjQQl__

MOTION FOR REHEARING AND/OR REHEARING
EN BANC AND REQUEST FOR WRITTEN OPINION
COMES NOW, the Petitioner Vladimir Eugene, pro se, in good faith,
respectfully moves the Honorable Court for Rehearing and/or Rehearing En
Banc and Request for Written Opinion, pursuant to Florida Rule of
Appellate Procedure 9.330. In support, Petitioner offers the following:
On January 27, 2021, the Court denied Petitioner’s January 4, 2021
petition for writ of habeas corpus because it is “frivolous and the claims are
successive”. The claims are indeed successive.

See 4D07-246, 4D16-

583, and 4D17-2454. However, the Court has the authority to reconsider
previously presented claims to prevent a manifest injustice,

And,

objectively, a manifest injustice will occur if the court fails to reconsider and
correct its previous ruling and afford Petitioner the same relief as similarly
situated defendants. See Johnson v. State, 9 So.3d 640, 642 (Fla. 4th
DCA2009); Prince v. State, 98 So.3d 768 (Fla. 4th DCA2012).

ISSUE ONE

TRIAL COURT COMMITTED HARMFUL ERROR BY
ADMITTING
THE
DECEASED’S
EMAILS
TO
PETITIONER.
To conclude this issue is frivolous, the Honorable Court have
apparently overlooked or misapprehended our supreme court’s precedents
in Banks v. State, 790 So.2d 1094, 1099 (Fla. 2001), Keen v. State, 775
So.2d 263, 274 (Fla. 2000), and Conley v. State, 620 So.2d 180, 182-183
(Fla. 1993), most recently relied on by this Court in Adams v. State, 195
So.3d 424 (Fla. 4th DCA2016), concluding:
“Because the state used the dispatcher's out of court statement
to prove the truth of the matter asserted, we conclude the trial
court erred in admitting the dispatcher's statement”. Id 428.
See also Tillman v. State, 964 So.2d 785 (Fla. 4th DCA 2007) ((citing
Conley) “Regardless of the purpose for which the state claimed it
offered the evidence, the state used the evidence to prove the truth of
the matter asserted. In so doing, the statement constituted
hearsay with no exception.’’ Id. at 789).
Similarly here, “regardless of the purpose for which the state claimed
it offered the [deceased’s emails]”, because the prosecutor improperly used
the emails to argue and prove the truth of the matter asserted, -that the
deceased had in fact cut Petitioner out of her life, not merely “to
demonstrate their impact on [Petitioner]”-, “[the deceased’s emails]
constituted hearsay with no exception” and their admission was erroneous.
Further, in stark contrast to the prosecutor in this case, not one of the
2

prosecutors, —in all the cases relied on by this Court to reach its conclusion
in Petitioner’s direct appeal1-, improperly used the out of court statements
in closing arguments to argue or prove the truth of the matter asserted.
And if, objectively, the prosecutor’s repeated arguments, telling the jury:
‘“[Petitioner] is angry at [the deceased7 for what? You know
from the emails that [the deceased7 had the nerve to reject him.
[The truth of the matter asserted], fThe deceased7 had the nerve to
cut her out of his life. [The truth of the matter asserted]. In the
beginning, fPetitioner7 told the police officers their relationship
was fine, fThe deceased/ didn’t cut me out of her life. ‘You are
talking like she cut me out of her life or something’.
You will see from the emails, because [Petitioner] doesn’t
know that those are still on [the deceasedj’s computer and the police
will eventually get those. That is exactly what fthe deceasedl did.
[The deceased7 cut him out of her life* [The truth of the matter
asserted].
You know from that point on. the relationship severs [The
truth of the matter asserted]. [The deceased7 cuts him out. [The
truth of the matter asserted]. [The deceased7 is not going to let him
in her life anymore. [The truth of the matter asserted]. That is what
starts all of this. This is where the motive comes from.
The man sitting right there is what caused what [the deceased]
looked like in this picture to become that picture. That man did that.
It’s because [the deceased1 rebuffed him. [The truth of the matter
asserted]. In the name of love, he couldn’t take it, and killed her’.
*Going back to [the deceasedl Remember that fPetitioner7
says that [the deceased7 didn’t cut him off. This is an email from
fthe deceased1 written on May 18th: I will never get over the fact
that you hurt me. I always believed in you. I always thought we would
never part. Unfortunately I can’t get over the fact that the man I loved
1
Foster v. State, 778 So.2d 906, 914-15 (Fla. 2000); Blackwood v.
State, 777 So.2d 399, 407 (Fla. 2000); Koon v. State, 513 So.2d 1253,
1255 (Fla. 1987); United States v. Cruz, 805 F.2d 1464, 1478 (11th Cir.
1986); and Stewart v. Henderson, 207 F.3d 374, 377 (7th Cir. 2000).
3

whole heartedly, nothing holding back, could ever do what you did.
The sad thing is, I still love you the same. I just can’t be around you
yet I still love you. I could never hate you because I love you too
much. It’s funny how at the moment, you could look me in the eye
and strike me twice, with no hesitation. It won’t happen again,
because I won’t be there anymore for it to happen. It’s funny how you
can look me dead in the face, in my eyes, and strike me, not once but
twice, the person that you claim you love so deeply. Yet, at the same
moment, you didn’t strike [Petitioner’s wife]. That goes to show you
who you really love. ...
[The deceased7 is saving right there that she is cutting him off.
[the truth of the matter asserted]. I will never see you again. ‘How
could you look me straight in the eve so coldly and strike me.
Not only did I lose mv heart and soul mate, but you and vour
lovely wife took a very good friend of mine, as well. Farewell.
Goodbye. I will always remember the rPetitionerl that never hit
me' [the truth of the matter asserted].
She rebuffed him and that’s it. it’s over. [The truth of the matter
asserted]. How dare she. She is going to leave him? He will
show her, and he did. He took her life". IB 26-29.
is not competent, substantial evidence of the prosecutor’s improper and
extensive use of the deceased’s emails as classic hearsay and substantive
evidence to prove and convince the jury that the deceased had in fact cut
Petitioner out of her life --the truth of the matter asserted in the deceased’s
emails-- then this issue is patently frivolous, even malicious, warranting
sanctions, including lost of all gain time and fifteen years of disciplinary
confinement for wasting the Honorable Court’s scarce and precious
resources and any additional sanction the Court may deem appropriate.
Otherwise, Petitioner prays that the Court recognize it had failed to
perceive while "theoretical!y” the deceased’s emails may have been
4

properly admitted “to demonstrate their impact on [Petitioner]”, the
prosecutor’s improper use of those emails in closing arguments forecloses
such conclusion and grant this motion for rehearing, reverse and remand
this case for new trial like similarly situated defendants in Adams, Banks,
Conley, Tillman, and Keen to avoid a manifest injustice and violating
Petitioner’s right to equal treatment under federal and Florida constitutions.
Else, the Court should certify conflict with our supreme court’s precedents
in Banks v. State, 790 So.2d 1094 (Fla. 2001), Conley v. State, 620
So.2d 180 (Fla. 1993), and Keen v. State, 775 So.2d 263 (Fla. 2000)
and/or issue a written opinion which would provide a legitimate basis for
supreme court review to resolve this Court’s conflictive decision.
Request For Rehearing En Banc
Because the panel’s decision on issue One is in conflict with this
Court’s decisions in Adams v. State, 195 So.3d 424 (Fla. 4th DCA 2016),
and Tillman v. State, 964 So.2d 785 (Fla. 4th DCA 2007), Petitioner
respectfully moves the Court for Rehearing En Banc to maintain uniformity
of decisions within the Court.
WHEREFORE, Petitioner prays that the Honorable Court grant this
Motion for Rehearing and/or Rehearing En Banc and reverse and remand
this case for a new trial like similarly situated defendants in Adams, Banks,

5

Conley, Tillman, and Keen to avoid a manifest injustice and violating
Petitioner’s right to equal treatment under federal and Florida constitutions.
Else, Petitioner prays that the Court certify conflict with our supreme court’s
precedents in Banks v. State, 790 So.2d 1094 (Fla. 2001), Conley v.
State, 620 So.2d 180 (Fla. 1993), and Keen v. State, 775 So.2d 263 (Fla.
2000) and/or issue a written opinion which would provide a legitimate basis
for supreme court review to resolve this Court’s conflictive decision.
Respectfully submitted,

Spsiiifer
Vladimir Eugene, DC# B04065
Petitioner, pro se
DeSoto C. I. (Annex)
13617 S.E. Hwy 70
Arcadia, Florida 34266-7800
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that on<*., 2021, I personally handed a
true and complete copy of the foregoing “Motion for Rehearing and/or
Rehearing En Banc” to an official at DeSoto Correctional Institution for
mailing by first class U.S. Mail postage prepaid to: Attorney General Office;
1515 North Flagler Drive, Suite 900; West Palm Beach, Florida 33401.

yiSSS€u^neT£)C# B04065
Petitioner, pro se
6

No.:
IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Respondents).

Appendix D
(Fourth District Court of Appeal of Florida published decision on direct appeal.
Eugene v. State, 53 So.3d 1104 (Fla. 4th DCA2011))

Appendix D

Eugene v. State, 53 So.3d 1104 (2011)
36 Fla. L. Weekly D176

messages had on defendant rather than to
establish the truth of the matters contained in
messages. West's F.S.A. § 90.801(l)(c).

53 So.3d 1104
District Court of Appeal of Florida,
Fourth District.
Vladimir EUGENE, Appellant,
v.
STATE of Florida, Appellee.

Cases that cite this headnote

121

No. 4D07-246.

Criminal Law
Exceptions to hearsay rule, and non­
hearsay distinguished in general
When a statement is not offered for the truth
of its contents, but to prove a material issue
in a case, it is not hearsay. West's F.S.A. §
90.801(l)(c).

1
Jan. 26,2011.

I
Rehearing Denied Feb. 23,2011.

2 Cases that cite this headnote
Synopsis
Background: Defendant was convicted in a jury trial in
the Circuit Court, Seventeenth Judicial Circuit, Broward
County, Joel T. Lazarus, J., of first-degree murder.
Defendant appealed.

PI

Criminal Law
#?» Hearsay in General
A recognized, non-hearsay use of an out of
court statement is to show motive.
2 Cases that cite this headnote

Holdings: The District Court of Appeal, Gross, C.J., held
that:

[41

[1] victim's e-mail messages to defendant were nonhearsay
offered to establish effect messages had on defendant, and

Statements
detectives
made
during
interrogation of defendant concerning
detectives' beliefs about defendant's guilt and
their theories as to events surrounding murder
were not unfairly prejudicial under rule
providing for exclusion of relevant evidence
on grounds of prejudice or confusion, where
defendant made no equivocal responses
subject to being misconstrued by jury,
defendant was alert and articulate during
interrogation, defendant maintained that he
did not commit murder no matter what
interrogation technique the detectives threw
at him, and jury had ample time to consider
defendant's credibility over the course of the
extensive questioning. West's F.S.A. § 90.403.

[2] detectives' statements during interrogation concerning
their beliefs about guilt and theories about murder were
not unfairly prejudicial.

Affirmed.

West Headnotes (8)

M

Criminal Law
#?* Exceptions to hearsay rule, and non­
hearsay distinguished in general
Victim's e-mail messages to defendant,
documenting the intense relationship between
defendant and victim and the sudden
deterioration of that relationship, were
nonhearsay, and thus were admissible in
first-degree murder prosecution, where State
offered messages to establish the effect

Criminal Law
Evidence calculated to create prejudice
against or sympathy for accused

8 Cases that cite this headnote
[5]

Criminal Law
Evidence calculated to create prejudice
against or sympathy for accused

WESTIAW © 2017 Thomson Reuters. No claim to original U.S. Government Works.

1

Eugene v. State, 53 So.3d 1104 (2011)
36 Fla. L. Weekly D176

Whether evidence is admissible as more
probative than prejudicial is a discretionary
ruling for the trial court. West's F.S.A. §
90.403.
Cases that cite this headnote

[6]

Criminal Law
#= Evidence calculated to create prejudice
against or sympathy for accused
Not everything a detective says to a defendant
during a recorded interrogation is unfairly
prejudicial under rule providing for exclusion
of relevant evidence on grounds of prejudice
or confusion. West’s F.S.A. § 90.403.
3 Cases that cite this headnote

m

Criminal Law
Particular cases
A police officer's confronting a defendant
with a codefendant's statements during an
interrogation of the defendant may properly
be used as provocation to observe a
defendant's reactions.
3 Cases that cite this headnote

IB]

Criminal Law
#p Statements by persons engaged in
investigating or prosecuting offense
Statements made by police officers during
interrogation of defendant may be heard by
the jury to give context to the interview.
7 Cases that cite this headnote

Attorneys and Law Firms
*1105 Carey Haughwout, Public Defender, and Timothy
D. Kenison, Assistant Public Defender, West Palm Beach,
for appellant.
Pamela Jo Bondi, Attorney General, Tallahassee, and
Myra J. Fried, Assistant Attorney General, West Palm
Beach, for appellee.

Opinion
GROSS, C.J.
Vladimir Eugene was convicted of first degree murder
and sentenced to life in prison. We affirm. We choose to
address two of his arguments on appeal. First, he contends
that the victim's emails to him were inadmissible hearsay.
Second, he argues that the trial court erred in allowing
the jury to hear four statements made by interrogating
detectives during questioning of Eugene which suggested
their belief as to his guilt or “theory as to what happened.”
We provide a detailed review of the evidence to give
better context to appellant's arguments. The 21-year old
victim, Kathy Pierre, lived with her family at a house in
Miramar. On a July Sunday in 2005, the victim's younger
sister, Edna, woke up at 8:30 a.m. and got ready for
work. She went into the victim's room to get some lotion.
Nothing seemed unusual and nothing was out of place.
Edna noticed the victim in her bed completely covered by
a comforter; this was not the usual way for the victim to
sleep.
After Edna left the house, the victim's mother, Florise,
discovered her daughter's body. She saw marks on the
victim's neck and mouth. The victim had been strangled
from behind with some type of ligature, and something
had applied pressure to her face. The victim was in
her underwear. There was no evidence of sexual activity
or assault; no alien DNA was found. There was also
no evidence anywhere in the house that a struggle had
occurred. There were no signs of forced entry. The only
thing missing in the entire house was a cordless black
house phone from a base in the victim's room.
Appellant, who was Florise's cousin, had an intensely
close relationship with the victim and her family. Thirteen
years older than the victim, he began to live with the family
when the victim was in elementary school. He and the
victim had a special and unique relationship. Although no
one ever observed inappropriate sexual contact between
them, appellant often slept in the victim's room. While he
stayed with the family, appellant got married and started
his own family. The victim did not like appellant's wife at
first, but soon the women became friends. After appellant
got married, he continued to frequently sleep in bed with
the victim. The victim's stepfather and mother were aware
of this sleeping arrangement but did not think it was

WESTLAW © 2017 Thomson Reuters. No claim to original U.S. Government Works.

2

Eugene v. State, 53 So.3d 1104 (2011)
36 Fla. L. Weekly D176

unusual. Shortly after *1106 appellant's first child was
bom, he moved his family to Boynton Beach.
Even after the move, appellant was a frequent visitor at the
victim's home, often spending nights in the victim's room.
He had a key to the house and knew the code to the alarm
system. The victim often spent weekends with appellant
and his family in Boynton Beach; during these visits the
victim slept in a number of different places, sometimes
in bed with appellant. Appellant's wife commented that
it was normal for her husband and the victim to lounge
around together in their underwear. Witnesses described
appellant and the victim as having a father-daughter
relationship, but with physical interaction like a boyfriend
and girlfriend who were always “all over” each other and
who would tell each other everything. They spent hours
talking in each other's arms. When not together, appellant
and the victim would speak every day by phone or over
the Internet.
About six weeks before the murder, a rupture occurred
in the relationship between appellant and the victim.
Appellant got into an altercation with his wife and the
victim intervened. Appellant pushed or hit the victim
twice. She took offense and broke off the relationship.
Her visits with appellant stopped. After the fight with the
victim, appellant's behavior changed—he stayed home,
lying in front of the television all day, not wanting to
do anything. Appellant told the victim's mother that he
could not afford to lose the victim's friendship and that
he would give his life for her. Over the next few weeks,
appellant repeatedly telephoned the victim. Many times
the victim refused to take his calls. To try and repair the
relationship, appellant sent text messages and emails in
which he professed his friendship and love and made it
clear that his life was torn apart by losing his best friend.
He told Florise that it was “killing” him to lose the victim's
friendship.
The victim's response to the changed relationship was
different than appellant’s. She cut appellant out of her life
and, for the first time, began to spend time with other men.
Three social friends of the victim were mentioned at trial:
Adelyn, the brother of appellant's wife and a cousin of the
victim's mother; Stephane, a friend of both the victim and
Adelyn; and Benny, a boxing instructor. Appellant was
jealous that the victim had started going out and having
fun.

Adelyn lived with appellant and his family. Florise
described him as a friend of her daughter. Edna
characterized him as a close friend of her sister’s, whose
relationship with her did not change in the month before
her death. Adelyn and the victim never argued and never
had a falling out. Adelyn met the victim through appellant
when she visited Haiti several years before the murder.
He denied having an intimate sexual relationship with the
victim and testified that he had engaged only in “kissing
to more intense” heavy petting with her. Adelyn talked
with the victim many times over the two days preceding
her death. On the night that she died, he stayed in at
appellant's home and had no contact with anyone between
11 p.m. and 8 a.m. the next morning.
About a month before the murder, Benny the boxing
instructor started giving the victim boxing lessons for
2.5 hours every weekday. Three days before the murder,
they went out on a date. While they were out, the victim
received phone calls that upset her. They had plans to
go on a second date the weekend of her death. After the
murder, appellant told a friend that he never liked the
boxing instructor and that he had gone to the gym to check
him out, pretending to be a prospective customer. The
instructor remembered *1107 showing appellant around
on this visit to the gym. Appellant did not think the
instructor should be dating a client and did not approve
of the victim receiving his late night calls.
Stephane was a friend of both Adelyn and the victim who
did not meet appellant until after the murder. The night
of her death, the victim went out on a date with Stephane.
While the victim was getting ready, Edna used the black
cordless phone in her sister's room. When she was finished,
she threw the phone onto the victim's bed. The victim
was in a good mood. She left the house shortly after 9
p.m. About ten minutes later, Edna left the house for her
evening out.
The victim picked up Stephane in her car and they went to
dinner at Dave & Buster's. On the way, the victim received
a call on her cell phone. Although she was not happy about
it, she answered the phone, listened quietly, abruptly
hung up, and then was quiet for a while. She received
a second call during dinner. Her only contribution to
the conversation with the caller was to ask, “Are you
done yet?” Phone records later established that appellant
called the victim twice while she was out with Stephane.
Although his phone was turned off, Stephane received two

WESTLAW © 2017 Thomson Reuters. No claim to original U.S. Government Works.

3

Eugene v. State, 53 So.3d 1104 (2011)
36 Fla. L. Weekly D176

calls from the victim's house phone at 12:23 and 12:27 a.m.
The victim dropped Stephane off at his house between
12:30 and 1:00 a.m. and said she would call him when she
got home. Stephane never received the victim's call.
When Edna arrived home shortly after 3 a.m., she noticed
nothing unusual. The front door was locked. The only way
to have locked the door from the outside was with a key.
Nothing seemed out of place.
After the victim's body was discovered, Florise called
appellant's house and spoke to his wife. Appellant was
already on his way to the victim's house. When he arrived,
Florise confronted him, but he showed no emotion.
Adelyn arrived at the house and spoke to appellant, who
said he thought that the boxing trainer was a possible
suspect. After talking with the police, Adelyn went to get
Stephane, but his car would not start, so he borrowed
appellant's car. Stephane and Adelyn both noticed a black
house phone in the car, by the front seat.
When the police later searched appellant's car, they found
the black cordless house phone, which had the same serial
and model number as the phone base in the victim's
room. The police called the victim's number, and the black
cordless phone rang. The police also found some jewelry
in the glove compartment. Appellant's conflicting stories
about the phone and the jewelry were significant pieces of
evidence in the trial.
Several weeks before the murder, Edna and Florise had
seen the same jewelry in the victim's room. The victim
showed the jewelry to one of her friends. Appellant told a
friend that he had bought the jewelry for his wife and had
let the victim look at it. He also told the friend that he had
bought the jewelry for the victim. To the police, appellant
claimed that he had bought the jewelry for his wife as
a present for their fifth wedding anniversary. However,
appellant's wife explained that, as a Jehovah's Witness, she
did not celebrate her wedding anniversary and that her
husband had never before given her an anniversary gift.
Several days before the murder, appellant's wife cleaned
out his car. On the night of the murder, she used the
car until 9:15 p.m. At no time did she see the jewelry or
the black cordless telephone. However, during his first,
extensive statement to the detectives, appellant said that
he had bought this phone a month before *1108 the
murder and that the phone had been in his car ever since.

In a later interview, appellant changed his story and told
the police that he did not put the phone in his car.
On the night of the murder, appellant left his home around
10 p.m. and did not return until 4 or 5 a.m. He told the
police that he was alone, sitting in his car, at a park by
the water between 11 p.m. and 4 a.m. He told a friend a
different story—that he had been fishing. Appellant had
not been fishing for three years. When questioned by the
detectives about this discrepancy, appellant maintained
that he did not tell his friend anything about going fishing.
Text messages and emails between appellant and the
victim gave definition to the intensity of their unique
relationship. These are examples of the messages appellant
sent to the victim:
I want to reassure you the most important mission for
the short time left on this planet is to spoil you with
everything the best way I can. Love always, [appellant].
Since the waiting list is long for a date with a hot chick
like you, I figure I would ask early. Would you like to
see “The Land of the Dead?” It comes out this Friday.
Let me know ASAP because brother needs a makeover,
to accompany a beautiful lady like you. I hope I am not
far down the list.
I am sorry if I sound like I am pressuring you. Have fun
wherever you have to be at. Wherever you have to be,
have some for me too.
Hey, Love. I just made the deposit of 200 for you.
The state introduced 19 emails from appellant to the
victim and three emails from the victim to appellant.
Appellant's emails are needy and intense. He said he was
hurting and mentioned killing himself. He was married to
his wife, but his relationship with the victim was greater.
He loved his wife, but was in love with the victim. Without
the victim, he had no one with whom to discuss personal
things. His life was meaningless without her. He liked
Adelyn, but warned the victim not to let Adelyn take
advantage of her, like kissing him when he was not even
her boyfriend. It was killing him inside that he may have
lost her to Adelyn, but he was at her mercy.
The victim's emails to appellant let him know that there
had been a sea change in their relationship. For example,
in one email the victim told appellant:

WESTLAW © 2017 Thomson Reuters. No claim to original U.S. Government Works.

4

Eugene v. State, 53 So.3d 1104 (2011)
36 Fla. L. Weekly D176

I will never get over the fact that you hurt me. I always
believed in you. I always thought we would never part.
Unfortunately, I can't get over the fact that the man I
loved whole heartedly, nothing holding back, could ever
do what you did.

the victim had “had abortions from [the defendant]” and
that the victim was “pregnant from someone else.” Id. The
Supreme Court held that the victim's statements were not
hearsay. Id. Rather,
the victim's statements were offered
to show the effect such statements
had on [the defendant]. His state of
mind and knowledge were relevant
to show both his motive and intent
in committing murder. Certainly,
the [defendant's] knowledge of the
victim's past abortions, pregnancy,
and intention not to see him
anymore were material to the
issue whether appellant possessed a
motive to kill the victim.

The sad thing is, I still love you the same. I just can't
be around you anymore. I can't promise you that I will
ever contact you again or ever see you again. You hurt
me, yet I still love you. I could never hate you because
I love you too much.
It's funny how at that moment, you could look me in
my eye and strike me twice, with no hesitation. It won't
happen again, because I won't be there anymore for it
to happen.
It's funny how you look me dead in the face, in my eyes,
and strike me, not once but twice, the person that you
claim to love so deeply. Yet, at the same moment, you
didn't strike [your wife]. That goes to show who you
really love.

Id.

Similar to Blackwood, in the homicide case Foster v. State,
the state introduced the victim's out of court statements
to the defendant about reporting an arson in a school
auditorium to the campus police. The Supreme Court
Other emails described the victim's feelings for Adelyn and
held that the statements were non-hearsay to “establish
her concerns that *1109 other people were interfering in
both knowledge and motive, rather than to establish the
that relationship to “protect” her.
factual truth of the contents of the statements.” 778 So.2d
[1] Appellant contends that the victim's emails to him at 915. The Court observed that the defendant had a
“motive for killing [the victim] as soon as he found out
were inadmissible hearsay. However, the emails were not
about [the victim's] promise to tell the authorities the next
hearsay because they were offered not for the truth of the
morning”
about the arson. Id.; see also Koon v. State, 513
matters they contained but to establish the effect that the
So.2d 1253, 1255 (Fla. 1987) (holding that a magistrate’s
statements had on appellant, the recipient of the emails.
statement to the defendant at a preliminary hearing
[2] [3] Subsection 90.801(l)(c), Florida Statutes (2008), was not hearsay because it was relevant to defendant's
formation of a motive to kill a prosecuting witness);
defines “hearsay” as a “statement other than one made
United States v. Cruz, 805 F.2d 1464,1478 (11th Cir.1986)
by the declarant while testifying at the trial or hearing,
(out
of court statement not hearsay if offered “to show the
offered in evidence to prove the truth of the matter
effect
it has on [the] hearer”); Stewart v. Henderson, 207
asserted.” The Supreme Court has recognized that a
F.3d 374, 377 (7th Cir.2000) (out of court statements not
statement may “be offered to prove a variety of things
hearsay where offered to demonstrate impact on listener’s
besides its truth.” Foster v. State, 778 So.2d 906, 914—15
state of mind).
(Fla.2000). When a statement is not offered for the truth
of its contents, but to prove a material issue in a case, it is
As were the statements in Blackwood and Foster, the
not hearsay. Id. at 915. A recognized, non-hearsay use of
victim's emails to appellant in this case were admissible
an out of court statement is to “show motive.” Id.
to establish a motive for the homicide—the sudden
deterioration of appellant's intense relationship with the
Thus, a victim's out of court statements were admitted
victim. The state offered the statements not for their truth,
to prove motive in the homicide case Blackwood v. State,
but to demonstrate their impact on appellant. Because
777 So.2d 399,407 (Fla.2000). There, the Supreme Court
appellant was the recipient of the victim's emails, this
considered a witness's statements that relayed certain
case is distinguishable from the line of cases involving
comments that the victim had made to the defendant—that
WEST LAW © 2017 Thomson Reuters. No claim to original U.S. Government Works.

5

Eugene v. State, 53 So.3d 1104 (2011)
36 Fla. L. Weekly D176

a victim's statement to a third person expressing *1110
fear of a defendant. See Johnson v. State, 969 So.2d 938,
951 (Fla.2007); Thomas v. State, 993 So.2d 105, 109-10
(Fla. 1st DCA 2008). In such cases, the victim's statement
cannot have had an effect on the defendant who did not
hear it, so it cannot be offered for a material, non-hearsay
purpose.
[4] Appellant's second point involves the statements
he gave to the police. Appellant gave two statements,
extending over eight hours. These DVD interviews were
published to the jury with the benefit of a 746 page
transcript. The detectives who questioned appellant used
a variety of interrogation techniques: they worked to
develop a rapport with appellant, pointing out similarities
in their beliefs and backgrounds; they closely observed
appellant's non-verbal reactions to questioning; they
confronted appellant with facts in the case that pointed to
his guilt; they developed themes about how and why the
crime occurred to see if appellant would latch on to one of
the themes and talk about the case;1 they offered socially
acceptable motives to appellant to see if he would choose
one; they offered him opportunities to explain things in a
way that would not indicate guilt, but which would require
an acknowledgement that he had been lying about certain
facts;2 they encouraged appellant to refer to himself in the
third person, as “Jimmy,” to distance appellant from the
case so that he would be more comfortable talking about
it; they appealed to his closeness with the victim's family
to help them solve the case and give the family closure. In
spite of the detectives' efforts, appellant steadfastly refused
to acknowledge any involvement in the murder.
In the first interview, the detectives questioned appellant
about his whereabouts the night of the murder, the nature
of his relationship with the victim, discrepancies between
his story and Stephane's, the jewelry found in his car,
his lack of emotion or surprise when learning of the
victim's death, how he had a key to the victim's house, his
willingness to submit to DNA testing, how he had “strong
reservations” about the “trainer guy,” and the events
that led to the deterioration of his relationship with the
victim. They discussed voodoo, which appellant described
as a “process” or “ritual” which causes the perpetrator
to “come forward” to the family. They talked at length
about the phone found in appellant's car, which appellant
claimed he had purchased online and which he maintained
was not the victim's. He insisted that the phone had been in
his car for several weeks. The detectives *1111 wondered

how the phone could maintain its electrical charge for
that length of time, but appellant contended that it was
possible.
Longer than the first interrogation, appellant’s second
interview with the detectives occurred several weeks
later. At the beginning of the statement, appellant
said he remembered that his wife had cleaned out the
car on the day before the murder, so that he could
not have been responsible for the phone discovered in
his car. He suggested that this fact made Adelyn or
Stephane the prime suspects, because they had been in
his car the morning the victim's body was found. The
police focused on the discrepancy between this story
and appellant's adamant story about the phone in the
first interview. The detectives asked appellant about
the closeness of his relationship with the victim. They
presented appellant with various theories about what had
happened. Appellant never admitted his involvement in
the crime.
Appellant argues that the trial court erred in allowing the
jury to hear, over defense objection, four statements by
the interrogating detectives that indicated their belief as to
appellant's guilt or “theory as to what happened.” Located
in different parts of the lengthy interrogation, these are the
four statements:
Let me talk to a jury, a grand jury, a judge, and a state
attorney and say, “Listen, I spoke with [Appellant]. It
took a while. [Appellant] obviously knows he made a
mistake.”
***
I'm a little fearful you're gonna do something to
yourself. You're gonna hurt yourself. And I'm being
serious. I'm being sincere.
***
If you were a jury member and that's the way it was told
to you, you would say, “That guy's lying.” Right?
***
You know why? Because you know it's true, Jimmy.
You drove down here—and I am not yelling. You drove
down here to the City of Miramar because you didn't
have control. Where the hell is she? She's going to be
rude to me like that on the phone, in front of Stephane? I

WESTLAW © 2017 Thomson Reuters. No claim to original U.S. Government Works.

6

Eugene v. State, 53 So.3d 1104 (2011)
36 Fla. L. Weekly D176

don't think so. I am going to humiliate her at the house.
She ain't there. Now what, Jimmy? Are you going to
humiliate her? Did you?
To the last question in the last quoted paragraph,
appellant responded, “You are taking one situation and
generalizing it.” The questioning then moved on to other
matters.
Appellant contends that, when considered in light of other
statements contained in the two interviews, these four
excerpts amount to reversible error under Sparkman v.
State, 902 So.2d 253 (Fla. 4th DCA 2005). Distinguishable
from Sparkman, this case does not present the great
danger of unfair prejudice that was the basis of that case's
holding.
Sparkman was a manslaughter case involving the death
of a toddler. Id. at 254. Other than the defendant, there
were no direct witnesses to the events leading up to the
child’s death. See id. at 254-57. The case was based
largely upon after-the-fact testimony from the child's
father, an emergency medical technician, and two medical
examiners, one of whom testified that traumatic, and not
accidental injury was the cause of the child's death. Id. In
a tape recorded statement with a detective, the defendant
maintained that she did not do anything that would have
hurt the baby, that she just shook her a little to get
her to wake up from a seizure. Id. at 256-57. During
the statement, the detective launched into an extensive
recitation of his theory of the case, outlining his version of
*1112 the facts of the crime. Id. at 257-58. The defendant
responded to the detective's accusations with “Uh huh”
and with silence. Id.
[5] We reversed based on the trial court's failure to
exclude the detective's hypotheses about how the crime
occurred from the tape recording. Id. at 258-59. The
basis of the holding was that the probative value of the
detective's words was “substantially outweighed by the
danger of unfair prejudice” or “misleading the jury” under
section 90.403, Florida Statutes (2005).3 See Shrader
v. State, 962 So.2d 369, 371 (Fla. 4th DCA 2007)
(recognizing that basis of holding in Sparkman was that
detective's statements were “blatantly prejudicial”). The
danger of unfair prejudice in Sparkman was that the
jury might have taken the defendant's responses to the

detective’s detailed and speculative narrative—silence and
“Uh huh”—as admissions of guilt.
[8] Not everything a detective says to a
[6]
17]
defendant during a recorded interrogation is unfairly
prejudicial under 90.403. The Supreme Court has
recognized that a jury may hear an interrogating
detective's statements about a crime when they
provoke a relevant response from the defendant being
questioned. For example, confronting a defendant with
a codefendant's statements may properly be used “as
provocation” to observe a defendant's reactions. See
Jackson v. State, 18 So.3d 1016,1031-32 (Fla.2009). Such
statements may be heard by the jury to “give context
to the interview.” Me Watters v. State, 36 So.3d 613
(Fla.2010). When placed in “their proper context,” an
interrogating detective's statements to a suspect could be
understood by a “rational jury” to be “techniques” used
by law enforcement officers to secure confessions. Id. at
637 (quoting Worden v. State, 603 So.2d 581, 583 (Fla. 2d
DCA 1992)).
This case does not present the danger of unfair prejudice
that informed Sparkman. Appellant made no equivocal
responses that the jury might have misconstrued.
Throughout the eight hours of interrogation, an alert,
articulate appellant maintained that he did not commit
murder, no matter what interrogation technique the
detectives threw at him. The jury had ample time to
consider the defendant's credibility over the course of
the extensive questioning. When placed in the context of
the entirety of the interrogation, the trial court did not
abuse its discretion in admitting the four excerpts quoted
above.4
*1113 We have considered the other issues raised by
appellant and find no reversible error.

DAMOORGIAN and CIKLIN, JJ., concur.
DAMOORGIAN, J., did not participate in oral
argument, but has had the opportunity to review the entire
proceedings.
All Citations
53 So.3d 1104, 36 Fla. L. Weekly D176

WESTIAW © 2017 Thomson Reuters. No claim to original U.S. Government Works.

7

Eugene v. State, 53 So.3d 1104 (2011)
36 Fla. L. Weekly D176

Footnotes
For example, one detective told appellant:
1
People do things for all different kinds of reasons. Love is a strong emotion. People have done crazy things for love.
Not romantic love. Jealousy. Things happen. People make mistakes. Some you cannot reverse. But you can still do
things to atone, to offer some relief to the family or whatever. Bad things happen.
For example, in the middle of the interrogation, this exchange occurred:
2
Detective Smith: Last night, you may have gotten a call—you called Kathy [the victim], right? You had a spat on the
phone or whatever. You went by the house, okay. And I know you—Jimmy goes by the house, okay? While shes
out, he hangs out there after mom and dad go to sleep. Hangs outside the house. Kathy comes home. You confront
Kathy, right? This is just a hypothetical. You confront her. You guys get in an argument. You take the phone last
night. I am not saying you touched her. I am saying you took the phone last night because you did not want her to
call the guy she was out with. But then, it's our job to look at Benny or whoever, because they did whatever they
did. What do you think of that hypothetical?
Appellant: Hypothetically, it would not add up. Because if I had a confrontation with her or argument with her, talking
is not—she is not going to talk hush, hush.
Although Sparkman v. State makes reference to the detective's “hearsay statements,” the hearsay rule cannot have been
the basis for the holding. 902 So.2d at 259. The opinion references the rule that a “trial court's ruling on the admissibility
of evidence will not be disturbed absent an abuse of discretion.” Id. “[Hjearsay evidence is inadmissible" under section
90.802, Florida Statutes (2008), so its admission is not a discretionary ruling of a trial judge. On the other hand, whether
evidence is admissible under section 90.403, Florida Statutes (2008), is a discretionary ruling of a trial court. See Sims
v. Brown, 574 So.2d 131, 133 (Fla.1991) (where the court wrote that the “weighing of relevance versus prejudice or
confusion is best performed by the trial judge who is present and best able to compare the two ), Citrus County v,
McQuillin, 840 So.2d 343, 345 (Fla. 5th DCA 2003) (recognizing abuse of discretion standard of review for rulings on

3

4

the admissibility of evidence).
A trial judge's application of section 90.403 to eliminate unfairly prejudicial statements is not a precise tool for addressing
the problem of unfair prejudice. Given the wide discretion afforded to trial courts' section 90.403 rulings, that section
hardly eradicates prejudice with laser like precision. Faced with a defendant's interrogation that contains non-hearsay
statements by police officers, a trial court might also specially instruct the jury on the limited purpose for which the jury
has been allowed to hear the interrogator's statements. See § 90.107, Fla. Stat. (2005). This is an example of such an
instruction:
A recorded police interrogation of the defendant has been introduced into evidence in this trial. During the
interrogation, any statements made by the police interrogator are not to be considered by you jurors as evidence of the
defendant's guilt. The statements made by the police interrogator during the interview of the defendant have not been
introduced into evidence to prove the truth of the matters asserted in those statements. In fact, the statements made
by the police interrogator during the interrogation of the defendant may be false and misleading. It is permissible for
a police officer conducting an interrogation of a defendant to make false and misleading statements to the defendant
in order to further the aims of the interrogation. However, it is not permissible for you jurors to rely on such police
interrogator's statements as proof of the defendant’s guilt.

End of Document

© 2017 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2017 Thomson Reuters. No claim to original U.S. Government Works.

8

No.:
IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Respondents).

Appendix E
(Repaginated Pertinent supporting records to Petitioner’s petition)

Appendix E

STATEMENT OF THE CASE AND FACTS
Appellant was convicted by jury of premeditated first degree murder and was
sentenced to life imprisonment with credit for 225 days time served. R 430-431,433434, 437-438, 440; B 415-419. Appellant denied killing Kathy Pierre, his second

cousin nearly 13 years his junior; his defense was that someone else, possibly his
brother-in-law Adelyn Severe, committed her murder.
In the mid-morning hours of Sunday, July 3, 2005, Florise Jean, Appellant’s
cousin, discovered her daughter, Kathy Pierre, laying lifeless in her bed wearing only
a bra and panties and with marks on her mouth and neck. T 842-843. Kathy lived at
home in Miramar with her mother, her sister Edna, and her step-father, Serg Delice.
T 581-583. After Jean’s horrific discovery, the police were called and she told
Officer Ford that her daughter had been strangled. T 843, 1242-1244.
Dr. Reinhard Motte confirmed that Kathy had ligature marks on her neck and
died as a result of being asphyxiated or strangled. B 114-117,126. However, he found
no evidence that Kathy had been subjected any sexual activity. B 133. Detective
Suchomel said that the ligature marks on Kathy’s neck appeared to be the same width
as a cord. T 1135-1136. He hypothesized that Kathy’s killer may have hidden in her
bedroom closet and then approached her from behind, looping something around her
neck and pulling back to constrict. T 1190,1222,1227. He acknowledged that he did
2

I

Foster, decedent’s friend, recognized the jewelry as belonging to Kathy. B 180-181.
Suchomel also found some bungee cord in Appellant’s trunk (B 190); however, he
discovered several bungee cords and cables to the side and in the backyard of
decedent’s residence. T 1147, 1170, 1600-1604. Nothing of evidentiary value was
found in either Stephane Raphael’s or Adelyn Severe’s car. T 1269, 1309-1310.
After the phone was found in Appellant’s car, Detective Danny Smith said
Appellant was brought to the police station, where he waived his Miranda 1 rights
and gave an 8-hour taped statement. T 1316, 1318; INT 1-342. Appellant gave a
subsequent interview on July 19, 2005. INT2 1-432; INT2a 360-406. Appellant’s
taped interview was published to jury with the benefit of transcript. INT 1-342, INT2
1-432; INT2a 360-406; Unnumbered Exhibits. Detective Toyota obtained a search
warrant for two computers (T 1544) and retrieved emails from the accounts of both
Appellant and decedent. T 1546, 1552-1614.
Defense counsel sought in limine exclusion of Kathy’s emails sent to
Appellant on grounds of hearsay and relevance. R 69-75. T 1508, 1511, 1513,1515.
B 12,44. The State responded that the emails were not offered for the truth but to put
Appellant’s emails in proper context. T 1508-1509. The trial court held that the
emails were not hearsay and therefore were admissible. T 1512, 1515, B 12,44.
1Miranda v. Arizona, 384 U.S. 436 (1966).
10

a

ARGUMENT
I. HARMFUL, PREJUDICIAL ERROR OCCURRED WHEN THE
TRIAL COURT ADMITTED THE VICTIM’S HEARSAY
STATEMENTS AND EMAILS TO APPELLANT, WHICH
SHOWED THAT SHE WAS CUTTING APPELLANT OUT OF
HER LIFE, SINCE THE HEARSAY IMPERMISSIBLY PROVED
APPELLANT’S STATE OF MIND AND MOTIVE TO MURDER
AND THE VICTIM’S STATE OF MIND WAS IRRELEVANT
At trial, the State offered less-than-overwhelming circumstantial evidence of
Appellant’s guilt. There were no eyewitnesses, no DNA or fingerprint evidence
linking Appellant to Kathy Pierre’s homicide, and no confession of guilt. Appellant’s
defense was that someone else killed Pierre. Without a motive, the State s evidence
was equally susceptible of an interpretation of Appellant’s innocence and Adelyn
Severe’s guilt. Thus, the prosecutor sought to introduce three emails from Pierre to
Appellant, as well as four hearsay statements from Appellant’s interview, to prove
that Appellant had a motive to kill her because she shunned him.
Defense counsel moved in limine to exclude the victim’s emails (R 69-75),
arguing that the emails were hearsay offered for the truth asserted and that Pierre s
state of mind was neither relevant nor subject to cross-examination. T 1508, 1511,
1513, 1515. B 12,44. The State responded that the emails were not offered for the
truth of what Pierre was stating but were necessary to put Appellant’s emails in
proper context. T1508-1509. The trial court held that the emails were not hearsay and
19

3

therefore were admissible. T 1512, 1515, B 12, 44.
Counsel also sought in limine exclusion of the recitation of five hearsay
statements made by Kathy, which were utilized by the detectives during their
questioning of Appellant. B 23-24; R 363-364,366-367,371. These portions of the
taped interviews were again offered to prove Kathy’s state of mind: 1) Look what
[Appellant] gave me, I’m not going to accept it [the jewelry]” (INT2 192); 2) “No,
Mommy. I don’t want to talk to [Appellant]” (INT2 230); 3) “As much as I love the
kids, I’m not going over there anymore” (INT2 264, 327-328); 4) “If you are going
by that, you could come to that conclusion. You can. After that incident happened,
she had a key to my house. What did she do with it, the key? She said take your keys.
I am not coming over to your house...She take the key off her key chain and she said
she want nothing to do with me” (INT2 265); 5) ‘The relationship was over that
Saturday” (INT2 267). However, the trial judge admitted these statements. B 23-24.
After the emails were admitted and published with transcripts to aid the jury
(T 1557-1559,1562, 1565-1567; B 12-14,44-46, 295-297, 304-305; Unnumbered
Exhibits), defense counsel filed a second motion in limine, arguing that hearsay
cannot be used to prove Appellant’s motive or state of mind. R 342-351. The trial
court denied the motion and defense request to instruct the jury to disregard the
emails. R 401. Counsel’s motion for a new trial on the same grounds (R 443-455)
20

H

was also denied. T 560.
Generally a trial court’s evidentiary rulings are reviewed for abuse of
discretion, that discretion is limited by the rules of evidence, and a judge lacks
discretion to make rulings contrary to the law or the facts. Johnson v. State, 969 So.2d
938, 949 (Fla. 2007). However, plain, reversible error occurs when a trial court
admits hearsay to prove motive in a case that relies solely on circumstantial evidence.
Thomas v. State, 993 So. 2d 105 (Fla. 1st DCA 2008) (admission of deceased’s
hearsay email to landlord stating that defendant (deceased’s boyfriend) refused to
move out was harmful error); Gosciminski v. State, 33 Fla. L. Weekly S810 (Fla.
October 8,2008) (statements of murder victim, before her death, to her sister and to
her brother-in-law, that defendant had noticed her jewelry, were inadmissible,
prejudicial hearsay).
Here, the trial court’s erroneous ruling to admit Kathy Pierre’s three emails was
harmful error that deprived Appellant of a fair trial. The State was permitted to
establish Appellant’s motive to commit murder with Kathy Pierre’s hearsay
statements. Motive was critical component lacking in the State’s circumstantial case,
and the prosecutor took full advantage of the inadmissible hearsay by arguing
repetitiously that Appellant was enraged because Kathy shunned him. Without this
erroneously admitted evidence of motive, the State’s evidence would have been
21

s

legally insufficient to sustain Appellant’s conviction.
An e-mail “statement” sent to another is always subject to the limitations of the
hearsay rule. Bowe v. State, 785 So. 2d 531,532-533 (Fla. 4th DCA 2001) (caller I.D.
readout and numbers appearing on digital display of defendant's pager were not
“hearsay;” however, message would have been hearsay if offered to prove that the
sender wanted to purchase the cocaine). Emails that are intended to assert or
communicate a thought or idea are hearsay when offered to prove the truth of the
matter asserted in the transmission. Id. In the absence of an applicable statutory
exception, hearsay evidence is inadmissible. Thomas, 993 at 105.
Kathy Pierre’s emails sent to Appellant qualified as inadmissible hearsay. As
a homicide victim, Pierre was unavailable to testify and was not subject to crossexamination. Her statements were offered to prove the truth of the matter asserted, i.e.
she wanted Appellant to stay away from her and to cease contacting her and fell under
no statutorily recognized exception for admission.
While Pierre’s statements as contained in the emails could cognizable fall
under the state-of-mind exception, Pierre’s state of mind lacked relevance here. A
victim’s state of mind prior to the fatal events is irrelevant in a premeditated murder
prosecution, unless it is made relevant to rebut a defense raised by the defendant or
to prove a material element of the crime. Taylor v. State, 855 So. 2d 1, 19-20 (Fla.
22

6

2003) (citing Woods v. State, 733 So. 2d 980, 987-988 (Fla. 1999).
However, Appellant never made Pierre’s state of mind relevant, so none of
these exceptions, recognized by the courts in homicide prosecutions, apply to Pierre’s
hearsay statements. See Peede v. State, 474 So.2d 808 (Fla. 1985) (holding that
victim's state of mind was relevant as an element of kidnapping to show that she was
forcibly abducted against her will); Pacifico v. State, 642 So.2d 1178,1185 (Fla. 1 st
DCA 1994) (holding that state of mind of victim was at issue to show she did not
consentto sexual intercourse in trial for sexual battery); Stoll v. State, 762 So. 2d 870,
874 (Fla. 2000) (holding that “the victim's state of mind may become relevant to an
issue in the case where the defendant claims: (1) self-defense; (2) that the victim
committed suicide; or (3) that the death was accidental.”); State v. Bradford, 658
So.2d 572, 574-575 (Fla. 5th DCA 1995)) (a homicide victim's state of mind “may
become an issue to rebut a defense raised by the defendant.”).
Additionally, Appellant never testified nor introduced evidence. Florida law
prohibits the prosecution from introducing rebuttal evidence to explain or contradict
evidence that the state zAe/foffered. Stoll, 762 at 875. (Emphasis supplied). Here, the
prosecutor told the trial judge that she was offering the hearsay statements not for the
truth of the matter but to put Appellant’s emails “in context,” arguing that“his emails
don’t make sense anymore because [the jury] doesn’t know what he responding to.”
23

7

T 1508-1509. This reason advanced by the prosecutor is disingenuous, since Pierre’s
emails were plainly offered for the truth asserted, i.e. that she wanted Appellant out
of her life. The hearsay statements were introduced exclusively to highlight Kathy
Pierre’s difference of opinion concerning the status of her relationship with
Appellant, which impermissibly rebutted his statements to police characterizing the
relationship with Pierre as rocky but otherwise good.
Most importantly, Florida courts have repeatedly held that a homicide victim’s
hearsay statements can not be used to prove the defendant’s motive or state of mind.
Stoll, 762 at 874 (Fla. 2000) (reversible error occurred by admitting victim’s hearsay
statement that she was afraid the defendant was going to kill her, where defendant
made statements to police contending that someone else killed his wife); Brooks v.
State, 787 So. 2d 765, 771 (Fla. 2001) (new trial required based on erroneous
admission of homicide victim’s hearsay statements by victim to her coworkers,
including an e-mail sent by victim to co-defendant, to show that defendant had driven
to location where victim was found murdered); Sybers v. State, 841 So. 2d 532,545
(Fla. 1st DCA 2003) (harmful error to admit witness’s hearsay testimony that
defendant’s girlfriend had told her that defendant was going to divorce the murder
victim, equating motive with defendant’s state of mind); Wells v. State, 492 So. 2d
712,715-716 (Fla. 1 st DCA 1986) (reversible error to admit taped statements by one
24

8

homicide victim accusing defendants of kidnaping and attempting to murder such
victim was not admissible under state of mind exception to hearsay mle, since
victim's state of mind was not issue in case; state took advantage of the error by
arguing the hearsay proved defendants’ motive to protect marijuana trafficking
business); Downs v. State, 574 So. 2d 1095,1098-1099 (Fla. 1991) (victim’s hearsay
statements relating her fear of defendant inadmissible to prove her state of mind or
that of defendant’s); Selver v. State, 568 So. 2d 1331 (Fla 4th DCA 1990) (harmful
error to admit murder victim’s statements expressing generalized fear of defendant
for a drug deal gone sour, especially since state relied on statements to prove
defendant’s motive); Fleming v. State, 457 So 2d 499, 502 (Fla. 2d DCA 1984)
(introduction of evidence of victim’s state of mind prior to her death held reversible
error).
Plainly, the State used Kathy Pierre’s hearsay statements to prove Appellant
had a motive to kill her because he was enraged that she shunned him. The hearsay
statements show that 1) Pierre was at one time madly in love with Appellant; 2) he
broke her heart; 3) she bids him farewell. Pierre also pleads for Appellant to stay
away because she cannot eat, sleep, and is on the verge of a breakdown. Without this
hearsay evidence, the State’s evidence showed Appellant as nothing more than an
over-protective father figure lacking a motive to commit murder. T 583, 587-588,
25

9

635, 650, 816, 819-820, 973, 975, 978, 1040-1043. Yet, the erroneous trial court
ruling allowed the State to transform these hearsay statements into substantive proof
that Appellant killed Pierre because he could not accept her rejection.
Thus, the ominous warning issued in Fleming went unheeded here, and the
danger of imputing hearsay to Appellant’s motive deprive him of a fair trial:
Certainly the danger that the jury would misuse this evidence [that the
victim utilized a romantic pretense to gain admission into defendant s
apartment to discuss personal and financial aspects of their divorce] for
the impermissible purpose of imputing a state of mind to appellant
(specifically, rage resulting from a confrontation, and thus a motive for
murder) outweighs the minimal importance of establishing the true
purpose of [the victim’s] visit to defendant’s apartment.
457 So. 2d at 499.
Despite the State’s assurances that emails were not offered for the truth of the
matter asserted (T 1508-1509), that is precisely how the State used them in closing:
You will see from these emails, and you will see as we go through the
evidence, that this is what the case comes down to. This man, in the
name of some sick love, couldn’t stand it anymore. On that day, he hit
a boiling point and brutally killed Kathy.
You know it’s a personal crime because not only does he suffocate her,
he also does ligature and strangles her to death. Why both ways? That
is rage. That is anger coming out.
He is angry at her for what? You know from the emails that she had the
nerve to reject him. She had the nerve to cut her out of his life. In the
beginning, he told the police officers that their relationship was fine. She
didn’t cut me out of her life. You are talking like she cut me out of her
life or something.
You will see from the emails, because he doesn’t know that those are
26

10

still on Kathy’s computer and the police will eventually get those, that
is exactly what she did. She cut him out of her life.
B 282.
You know from that point on, the relationship severs. Kathy cuts him
out. She is not going to let him in her life anymore. That is what starts
all of this. This is where the motive comes from.
The man sitting right there is what caused what she looked like in this
picture to become that picture. That man did that. It’s because she
rebuffed him. In the name of love, he couldn’t take it, and he killed her.
B 284.
You know what? I gave you this gift. I have done all this for you. I have
been begging you. I have been pouring my heart out to you, and you still
reject me. You went out with this other guy on this night.
B 285.
Going back to Kathy. Remember that he says that Kathy didn’t cut him
off. This is an email from Kathy written on May 18th:
“I will never get over the fact that you hurt me. I always believed in you.
I always thought we would never part. Unfortunately, I can’t get over
the fact that the man I loved whole heartedly, nothing holding back,
could ever do what you did.
The sad thing is, I still love you the same. I just can’t be around you
anymore. I can’t promise that I will ever contact you again. You hurt me
yet I still love you. I could never hate you because I love you too much.
It’s funny how at the moment, you could look me in the eye and strike
me twice, with no hesitation. It won’t happen again, because I won’t be
there anymore for it to happen.
It’s funny how you can look me dead in the face, in my eyes, and strike
me, not once but twice, the person that you claim you love so deeply.
Yet, at the same moment, you didn’t strike Claudia. That goes to show
you who you really love.”
She goes on to say:
27
//

“You will be extremely happy to know that me and Adelyn are broken
up. I can’t say broken up, because we were never together. I mean that
our friendship is no longer there, as well. You and your lovely wife will
be happy to know that.
Although I never mentioned it to you, all I ever really wanted was his
friendship. Nothing else I cherished than friendship; all the flaws and
great attributes that it had. I honest to God thought he was an excellent
friend.”
She is saying right there that she is cutting him off; I will never see you
again.
“How could you look me straight in the eye so coldly and strike me. Not
only did I lose my heart and soul mate, but you and your lovely wife
took a very good friend of mine, as well. Farewell. Goodbye. I will
always remember the [Appellant] that never hit me.”
B 295-297.
She rebuffed him and that’s it, it’s over. How dare she. She is going to
leave him? He will show her, and he did. He took her life.
B 301.
And yet, she rejects him. How angry is he getting? This is day after day
after day. He is up in the middle of the night pouring his heart out to her,
and nothing is working.
B 303.
Kathy said to him:
“We agreed to have distance between us, and you broke that today.
[Appellant], it’s already very hard emailing you and having to see you,
but you are making it very hard for me when you come to me crying. I
can’t handle all of that. I am already in a lot of pain.
I can’t take no more, for God’s sake. I have you up on my ass crying,
which makes me feel even worse.
I have Adelyn in the midst of this. I think I honestly hurt his feelings.
Now I believe he doesn’t like me anymore. He wants nothing to do with
28

IJL

me, at all. He says he’s okay, but his attitude is distant from me, so I just
leave him alone.
I do have a problem with you calling me crying, coming to me crying.
Like I said, I don’t promise you that I will ever talk to you again.”
B 304-305.
Kathy writes back to him:
“I know I lost Adelyn for real now. There is no one to blame but myself.
But when you told me what Claudia said, and how she is trying to
protect me from him, I snapped at him asked him what did he have
planned for me. I asked him that the wrong way. I didn’t mean it that
way. I simply asked him what I was told, and I know I hurt him, and
now he’s gone.
I can’t do this anymore. I am dying inside. I can’t eat, sleep, breathe. I
am weak all of the time. I can barely lift a spoon to my mouth. So, of
course, I’m sick.”
B 307-308.
Now he finally says I’m getting the feeling you don’t want anything to
do with me. It’s been how many emails? He is trying everything. He
goes down there. The emails and the calls. The gifts of expensive
jewelry. She is rebuffing all of it. He is growing angrier and angrier and
angrier.
B 310.
Now, she is doing this? She is going to do this to me? She is going to
cut me off? She is going to the beach with another guy? No way. I will
drive down there and confront her.
B 315.
Remember in your minds that this comes down to one thing: motive,
means, and opportunity. There’s only one person on the face of this
earth that had a reason to take this poor girl’s life away from her, and
29

13

that is the man seated across the courtroom from you. Thank you.
B 325-326.
These are not isolated remarks. Rather, the prosecutor emphasized the email evidence
to such an extent that she argued little else during her initial closing statement. This
was harmful error.
But for the erroneous admission of Kathy Pierre’s hearsay statements, the
evidence would have been legally insufficient to sustain a conviction. See Hawkins
v. State, 933 So. 2d 1186,1191 (Fla. 4th DCA 2006) (without erroneously admitted
expert opinion that defendant caused victim’s death, the state’s circumstantial
evidence failed to prove the necessary elements of felony third degree murder;
however improper admission of expert’s testimony does not bar re-trial under
Lockhartv. Nelson, 488 U.S. 33,34 (1988)).The State relied almost exclusively upon
Appellant’s motive, particularly as evidenced in Kathy Pierre’s emails to Appellant
(T 1658,1660,1663-1664), to survive Appellant’s motion for judgment of acquittal,
Going to motive, [Appellant is the only person that had a motive in this
case. Adelyn Severe, there is absolutely no motive whatsoever - that
they had a relationship. If anything, the emails lay out that it was Kathy
that wanted to get Adelyn back. Adelyn had moved on. Adelyn wasn’t
sending emails, Adelyn wasn’t sending text messages. He wasn’t doing
anything...
[Kathy] is the one that shuns Appellant in the end, disrespects him in the
end, and lays out what ultimately happened to her. And that’s why, in
reference to again - in versus the - the Biggs case and our case, there’s
30

/v

only one person that had access to this victim, that had a motive to kill
this victim, and that was Appellant.
And there is no evidence to suggest any reasonable inference that
Adelyn had any reason whatsoever to stalk her, to see her, to sneak into
her house and kill her.
T 1663-1664.
This argument, although on a much smaller scale, was nearly identical to the
prosecutor’s closing argument. The erroneous admission of Kathy Pierre’s hearsay
statements was plain, harmful error that deprived Appellant of a fair trial. Reversal
with remand for a new trial is now required.

31

IS

t
■i

!

victim’s state of mind expressed in the email was irrelevant hearsay. Further,

?

Appellee never addresses the fact that the purpose of this evidence was to clarify the

*
1

State’s own evidence, not to rebut evidence introduced by Appellant. AB 28-30.

\

Appellee also asserts that the email evidence was admissible not for the truth

i
i
:)

of the matter asserted but as a state-of-mind hearsay exception to show the effect of
the statements on Appellant’s mind. AB 30-35. In support of this contention,
Appellee relies exclusively on cases pertaining to the state-of-mind hearsay
exception. Yet the prosecutor’s single-minded use of the victim’s emails during

i

closing arguments makes very clear that they were offered for only one reason: to

■

prove that the victim was sincere in her desire to end her relationship with Appellant.
IB 26-31. Because the emails were offered for the truth of the matter asserted and not
for the effect that they had upon Appellant’s mind, the caselaw relied upon by
Appellee does not apply.
II. TRIAL COURT COMMITTED HARMFUL ERROR IN
ADMITTING DETECTIVES’ OUT-OF-COURT COMMENTS
INTERVIEW THAT
DURING APPELLANT’S TAPED
IMPERMISSIBLY CREATED ASPERSIONS OF APPELLANT’S
GUILT; EXCLUDED EVIDENCE THAT WAS NOT PROPERLY
REDACTED WAS ADMITTED INTO EVIDENCE FURTHER
DEPRIVING APPELLANT OF A FAIR TRIAL

1
|
f
i

Appellant relies on his argument as stated in the initial brief. IB 26-31.
i

4
i

I
s

No.:
IN THE
SUPREME COURT OF THE UNITED STATES

VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody
Respondent (s).

Appendix F
(Order of the Florida Supreme Court Dismissing Petitioner’s All Writ Petition
Seeking Review of the Fourth District Court of Appeal of Florida)

Appendix F

Supreme Court of jflorfoa
WEDNESDAY, MARCH 31, 2021
CASE NO.: SC21-490
Lower Tribunal No(s).:
4D21-23; 062006CF007295A88810
VLADIMIR EUGENE

vs.

Petitioner(s)

STATE OF FLORIDA
Respondent(s)

This case is hereby dismissed. This Court’s jurisdiction to
issue extraordinary writs may not be used to seek review of an
unelaborated decision from a district court of appeal that is issued
without opinion or explanation or that merely cites to an authority
that is not a case pending review in, or reversed or quashed by, this
Court. See Foley v. State, 969 So. 2d 283 (Fla. 2007); Persaud v.
State, 838 So. 2d 529 (Fla. 2003); Stallworth v. Moore, 827 So. 2d
974 (Fla. 2002); Grate v. State, 750 So. 2d 625 (Fla. 1999).
No motion for rehearing or reinstatement will be entertained
by the Court.
A True Copy
Test:
■3
*57;

John A. Tomasmo
Clerk, Supreme Court
td
Served:
VLADIMIR EUGENE
HON. BRENDA D. FORMAN, CLERK
HON. LONN WEISSBLUM, CLERK

#h

m

A
if'*.

A
7

X
N

o

CELIA TERENZIO

No.:
IN THE
SUPREME COURT OF THE UNITED STATES
VLADIMIR EUGENE,
Petitioner,
versus
ATTORNEY GENERAL OF FLORIDA, Ashley Moody,
Respon den t(s).
PROOF OF SERVICE
I, Vladimir Eugene, Petitioner pro se, do hereby certify under the penalty of
r
/

perjury that on this 16th day of June 2021, I personally handed a true copy of
Appendices “A” thru “F” to Petitioner’s Petition for Writ of Certiorari to an official at
DeSoto Annex for the sole purpose of mailing via first class U.S. Mail postage
prepaid to all parties required to be served as follow:

/

•

Office of the Clerk, Supreme Court of the United States, 1 First Street
Northeast, Washington, DC 20543-0001; and

•

Office of the Attorney General; 1515 North Flagler Drive, Suite 900; West
Palm Beach, Florida 334014

wm
rmir Eugene, DC# B04065
Z9.

U<

Petitioner, Pro se

'-MPetitioner only mailed Appendix F to the Office of the Attorney General to
4
avoid redundancy.

